20-6573
No.

filed
OCT 3 0 2020

IN THE SUPREME COURT OF THE UNITED STATES

Ellis Keyes, Petitioner,

versus

Matt Wilson,

City of Fort Payne, Alabama, Respondent,

On Petition for Writ of Certiorari to the United States Court of Appeals

for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Ellis Keyes, Propria Persona
P.O. BOX 1073
Whitesburg, KY 41858-1073
(606)821-9815

Appeal from United States Court of Appeals for the Eleventh Circuit No.2012253-G
Appealed from the District Court For the Northern District of Alabama No.
f7

4:19-cv-OI 717-CLM

To the Honorable Clarence Thomas, Associate Justice of the United
States Supreme Court and Circuit Justice for the Eleventh Circuit:Plaintiff,
Ellis Keyes, propria persona, hereby appeal to the Supreme Court of the
United States from the ORDER entered in this action on September 21,
2020 ,rand from all decisions, rulings, and orders that gave rise to that
judgment.
REASONS TO GRANT WRIT
The reasons writ should be granted are to stand united in the public interest
for a well regulated militia at the point of contact with police and the general
public and for a scaled de-escalation by injunction requested persuant to
the U S Constitution Second Amendment. The assumed violation of
municipal gun laws supplies the requisite Fourth Amendment authority as
well as that of reciprocity set forth in Apendix at A4. Other nations have had
success in disarming police. Iceland residents are15th worldwide in gun
ownership per capita and police routinely there patrol unarmed for safety

- I-

and good public relations it operates by consent, rather than through the
explicit threat or use of force, removes barriers between police and the
public, builds trust on both sides. Armed police feed violent interactions in
marginalized communities, confrontations that escalate into mistreatment
abuse, and violence enabling a policing philosophy built on forced
compliance, rather than respect, trust and consent. Unarmed officers will
produce lower risk outcomes and reduce violence.
Let CERTIORARI be granted.
• /

QUESTIONS PRESENTED
Continuing prosecution I ask the court grant motion for order to show
cause why defendant police should not be restrained from deadly force?
LIST OF PARTIES AND RELATED CASES
All Parties appear in the caption of the case on the cover page.
The Northern District Court of Alabama dissmissed. Eleventh Circuit
denied Forma Pauperis.
TABLE OF CONTENTS
APPENDEXA
. 1.)11th Circuit order - A1

~2-

2.)Northern District of Alabama orders - A2
3.)USDC Eastern District of Kentucky -A‘3.
4.) Status settlement offer to municipality.
TABLE OF AUTHORITIES
Court must view the complaint in the light most favorable to the plaintiff and
accept all the plaintiffs well-pleaded facts as true." Am. United Life Ins. v.
Martinez, 480 F.3d 1043, 1057 (11th Cir. 2007) (citing St. Joseph's Hosp.
Inc. v. Hosp. Corp. of Am., 795 F.2d 948, 954 (11th Cir. 1986)).
The United States Constitution gives to the private citizen protectiqn
against all wrongful governmental invasion.
As far as the Sovereignty of the States cannot be reconciled with the
happiness of the people, the voice of every good citizen must be.

OPINIONS BELOW
The Northern District Court of Alabama dismissed this action for failure to
prosecute but I do not fail to prosecute, I appeal here. The Eleventh Circuit
denied Forma Pauperis for being frivolous but please look and see this is
not frivolous. The opinion of the Eleventh Circuit appears at Appendix, A1.

JURISDICTION
Timely CERTIORARI filed from 11th Circuit final Order.

-3-

° This case is of such imperative public importance to
o require immediate determination in this Court.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
A State may not define as a crime the same conduct Congress proscribes
persuant to USCA fourteenth and second Amendments respectively.

STATEMENT OF THE CASE
An injunction is sought to bring policing reform, to remove the power of
deadly force to kill innocent civilians by limiting the weapons they use,
every police officer should not have lethal weapons so the police of peace
shall respect the value of life.
CONCLUSION
Icelandic police do not carry firearms with them and few carry them in
the cars. In the republic of Ireland uniformed members of the
Guardians of the Peace don't carry firearms at all, nor are they
authorized to use them.

It is not justifiable that police have the use of deadly force ability to act

on impulse from an illusory fear for self-preservation often used as an
excuse to kill innocent civilians.

Therefore I seek a preliminary injunction to protect the public
from threat of actual and immediate irreparable harm to life and
liberty that will not cause any harm to law enforcement personnel but
rather improve relations with the public and make cooperation the good
faith standard. I further respectfully ask for order to show good cause
to why defendant police should not be bound by injunctive relief to
remove the power of police to kill innocent civilians by limiting the
weapons they use to non-lethal force, to have my property returned
AND for such other further relief as is just and proper.
Respectfully Siihmitted December 1st, 2020
Ellis Keyes, Propria Persona
elliskeves@ vahoo.com ,
PO Box 1073
Whitesburg,KY 41858-1073
(606) 821-9815

-5-

